No.

 

dn the
Supreme Court of the United States

Paul Sorum, Marvin Nelson, Michael Coachman,
Charles Tuttle and Lisa Marie Omlid, each on behalf
of themselves and all other similarly situated tax
payers of the State of North Dakota,

Petitioners,
vs.

The State of North Dakota, The Board of University
and School Lands of the State of North Dakota, The
North Dakota Industrial Commission,

The Hon. Douglas Burgum, in his official capacity as
Governor of the State of North Dakota, and the Hon.
Wayne Stenehjem, in his official capacity as
Attorney General of North Dakota,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF NORTH DAKOTA

PETITION FOR A WRIT OF CERTIORARI

AFFIDAVIT OF SERVICE

Stephen M. West, states that all parties required to be
served have been served and that three true and correct
copies of the Petition for A Writ of Certiorari were
served on the persons listed below on the 18th day of
December, 2020, by depositing them with the United
States Post Office, with First Class Postage prepaid.
Matthew A. Sagsveen
Solicitor General

Office of the Attorney General
500 North 9th Street
Bismarck, ND 58501

Mark Richard Hanson

Special Assistant Attorney
General

201 N Fifth Street, Suite 1800

P.O. Box 2626

Fargo, ND 58108

Craig C. Smith

Paul J. Forster

Crowley Fleck PLLP

100 West Broadway Avenue
Suite 250

Bismarck, ND 58502

Subscribed and sworn to,before.me this. 18th day of

December, 2020.

 
 
 

Notary Public

Daniel L. Gaustad

Ronald F. Fischer

Joseph Elmer Quinn

Special Assistant Attorneys
General

24 North 4th Street

P.O. Box 5758

Grand Forks, ND 58206

Paul Sorum
5551 36th Avenue South F
Fargo, ND 58104

Fintan L. Dooley

218 N. 4th Street
Bismarck, ND 58501

fee

Stephen M. West

 

EDWIN R. MOTCH

NOTARY PUBLIC - MINNESOTA
My Commission Expires Jan, 31, 2025 0

  
     

 
 
 

 
